                      U.S. Department of Agriculture

                         Office of Inspector General
                                   Southeast Region




           Audit Report

Minority Participation in Farm Service
         Agency’s Programs




                            Report No. 03601-11-AT
                                    November 2005
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL

                                  Washington, D.C. 20250




November 17, 2005

REPLY TO
ATTN OFF: 03601-11-At

TO:           Teresa Lasseter
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff

FROM:         Robert W. Young /S/
              Assistant Inspector General
                for Audit

SUBJECT:      Minority Participation in Farm Service Agency’s Farm Loan Programs


This report presents the results of the subject audit. Your responses, dated October 25,
November 2, and November 3, 2005, are included as exhibit D with excerpts and the
Office of Inspector General’s (OIG) position incorporated in the relevant Findings and
Recommendations sections of the report. Based on your response, we have accepted
management decisions on Recommendations 1, 2, 3, 4, and 5. Additional information as
specified in the OIG position sections is needed before we can accept management
decisions for Recommendations 6 and 7.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the action taken or planned and the timeframes for implementation of
the recommendations. Please note that the regulation requires a management decision to
be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.
Executive Summary
Minority Participation in Farm Service Agency’s Programs (Audit Report No.
03601-11-At)

Results in Brief                     As part of the U.S. Department of Agriculture’s (USDA) ongoing efforts to
                                     improve its relationship with minority farmers and ranchers, this audit revisits
                                     the findings of a 1997 report of the Farm Service Agency’s (FSA) farm loan
                                     program 1 . We found that FSA implemented corrective actions on all
                                     13 recommendations from the 1997 report and initiated many substantive
                                     changes in its operation (see exhibit B). Though the data gathered
                                     demonstrates that FSA has made significant progress towards addressing
                                     minority farmers’ concerns, we conclude that USDA must continue striving
                                     to regain public trust in the fairness of FSA’s programs. To that end, USDA
                                     must correct additional problems in its departmental and FSA civil rights
                                     offices and begin nationwide coordination of local outreach activities.

                                     In our 1997 2 audit, we found situations in particular locations involving
                                     loanmaking, loan servicing, foreclosure actions, and employee conduct which
                                     may have adversely affected individual minorities. Since 1997 several high-
                                     profile lawsuits alleging FSA discrimination have emphasized the agency’s
                                     pressing need to improve its relationship with minorities. Producers
                                     representing a protected class have filed five lawsuits against USDA claiming
                                     racial or gender discrimination in FSA farm loan programs. 3 In 1999, Pigford
                                     v. Glickman was settled with USDA admitting no liability but agreeing to
                                     compensate black farmers who demonstrated by substantial evidence that
                                     he/she was the victim of race discrimination when applying for Federal farm
                                     loans; as of February 14, 2005, more than 13,762 claimants had received
                                     compensation totaling more than $839 million. The negative publicity
                                     occasioned by these suits, the number of individuals claiming discrimination,
                                     and the high damages involved have helped to foster the public perception
                                     that minorities applying for Federal farm loans may not always be treated the
                                     same as all other applicants.

                                     In our prior audit, we reported several issues which affected minority
                                     participation in FSA loan programs. We stated that (1) FSA had an
                                     outstanding backlog of civil rights complaints, (2) applications from minority
                                     applicants took more days to process than applications from nonminority
                                     applicants, (3) delinquent minority borrowers received a lesser number of
                                     loan servicing actions than delinquent nonminority borrowers, and (4) FSA
                                     needed to improve its relationship with the minority farming community.

1
  Minority Participation in Farm Service Agency’s Farm Loan Programs – Phase II 50801-3-Hq, September 1997.
2
  Similar to the 1997 audit, we define minorities as a member of a racial group such as Blacks (African American), Hispanics (Latino), American Indians,
and Asian Americans.
3
  Pigford v. Glickman, Garcia v. Glickman, Keepseagle v. Glickman, Love v. Glickman, and the more recent suit by the Black Farms Agriculture
Association.

USDA/OIG-A/03601-11-AT                                                                                                                          Page i
                   This occurred because of the lack of experienced personnel to conduct
                   investigations of civil rights complaints, lack of technical assistance available
                   to minority applicants and borrowers, and the lack of diversity in FSA
                   offices. FSA had a backlog of 474 civil rights complaints in 1997 (average
                   age of the majority of these complaints were 703 days, with the oldest
                   compliant being filed in 1986), it took 12 days longer to complete minority
                   applications, delinquencies were higher for minority borrowers than
                   nonminority borrowers, and minority borrowers were reluctant to enter into
                   FSA offices to apply for loans.

                   During this review, we obtained data on open civil rights complaints and
                   compliance reviews from the Departmental Office of Civil Rights (CR) and
                   we evaluated FSA’s Office of Civil Rights (FSA/OCR) operations and its
                   role in processing and monitoring complaints. We also visited 5 FSA State
                   offices and 10 FSA loan service centers. The 10 loan service centers process
                   and service direct loans for 65 counties in the 5 States we visited. At the
                   State offices and loan service centers we reviewed loan serving actions, debt
                   settlements, and foreclosure actions for disparate treatment of minority
                   farmers. Also, at the loan service centers we reviewed loan applications and
                   interviewed FSA’s borrowers and loan applicants from the 65 counties for
                   disparate treatment. We also interviewed FSA State office and county office
                   employees and evaluated their outreach effects.

                   We compared the results of this review to the conditions we found in 1997
                   and concluded, FSA has taken a number of actions that have improved its
                   relations with minority farmers and as a result: (1) the number of complaints
                   have been reduced to 113 (the majority of these complaints were just over
                   180 days old) as of January 2005; (2) days to process a minority loan
                   application from receipt to loan closing was reduced from 92 days (80 days
                   for nonminorities) to 65 (55 days for nonminorities); and (3) the number of
                   delinquent minority borrowers were reduced from 1,371 (9,323 for
                   nonminorities) to 115 (343 for nonminorities).

                   Also, the number of minorities on local county committees has increased
                   since 1997. On a nationwide basis, the county office committee (COC)
                   election results showed an 82-percent increase in minority membership in
                   COC, from 191 (2.4 percent) of 8,148 members in 1997 to 348 (4.4 percent)
                   of 7,872 members in 2004.

                   Although CR and FSA have made significant improvements since 1997, our
                   review identified three areas where further improvements are needed.

                   CR Does Not Conduct Compliance Reviews

                   CR has not conducted compliance reviews of FSA programs in over 5 years
                   to determine whether the agency’s practices comply with civil rights statutes.

USDA/OIG-A/03601-11-AT                                                                      Page ii
                   Since 1997, CR has committed most of its resources to reducing the backlog
                   of complaints. Without performing these compliance reviews—a necessary
                   management control for detecting and remedying noncompliance with civil
                   rights policies—CR cannot ensure that FSA programs are free of practices
                   adversely affecting minorities.

                   Given the judicial scrutiny being directed at FSA programs, it is in the
                   Department’s best interest to be meticulous in reviewing FSA, as compliance
                   reviews are a key management control used to detect and remedy
                   noncompliance with civil rights policies.

                   In 1997, we found that CR’s backlog of FSA civil rights complaints had risen
                   to 474. We recommended that CR take immediate steps to reduce the number
                   of outstanding civil rights complaints. As of January 26, 2005, this audit
                   found that the number of unresolved complaints had fallen to 113. Because
                   the number of civil rights complaints filed in FY 2004 had decreased to
                   51— just 6 percent of its peak filings of 807 in FY 1999—we concluded that
                   CR should commit some of its resources to conducting compliance reviews
                   of FSA’s programs.

                   FSA’s OCR Lacks Standard Operating Procedures (SOP) for its Role in
                   Processing Complaints

                   Management controls at FSA/OCR were ineffective for monitoring of
                   program discrimination complaints. This occurred because of the lack
                   managerial direction and written standard operating procedures and a
                   frequent turnover in management, six directors in 7 years—with tenures as
                   short as 6 months. FSA/OCR staff worked without comprehensive SOPs for
                   tracking program complaints effectively, meeting the Department’s 24-day
                   deadline for conducting Fact Finding Inquiries (FFI) and preparing agency
                   position statements, and liaising with FSA field offices. FSA/OCR cannot, as
                   a result, assure the Department that its role in the civil rights program
                   complaints process is performed with due care and in a timely fashion.

                   FSA’s National Outreach Programs Do Not Sufficiently Coordinate Local
                   Outreach Efforts

                   FSA has improved its outreach greatly since 1996, spending $17.4 million
                   over 8 years. Our audit found, however, that because FSA has largely
                   focused on nationwide initiatives, local outreach activities vary markedly
                   from county to county, with the result that constituents in different
                   communities are experiencing dissimilar levels of service. FSA’s National
                   Office Outreach staff does not evaluate or monitor State office and CO’s
                   outreach activities nor does it provide guidance on reaching minority farmers.
                   This occurred because the National Office Outreach staff does not have the
                   authority to direct State’s outreach activities. Due to this lack of
USDA/OIG-A/03601-11-AT                                                                   Page iii
                   coordination, FSA cannot ensure that its COs are doing everything possible
                   to reach all underrepresented farmers and ranchers.

Recommendations
in Brief           To ensure that FSA’s programs are in full compliance with all civil rights
                   regulations, USDA should direct CR to resume conducting compliance
                   reviews.

                   FSA should also continue acting to improve its relationship with underserved
                   producers by (1) verifying that its agency’s OCR finalizes draft SOPs for the
                   processing of civil rights complaints, (2) developing and implementing policy
                   to authorize the National Office Outreach staff to oversee and direct State and
                   CO’s outreach activities and, (3) establishing a nationwide strategy for the
                   coordination of outreach activities at the Federal, State, and local levels.

Agency Response    FSA concurred with five of the report’s seven recommendations. FSA did
                   not agree with finding 4, “FSA’s National Outreach Program Should
                   Coordinate With County Officials to Reach Local Minority Communities,”
                   and Recommendations 6 and 7 to establish a nationwide strategy for outreach
                   activities at all levels. FSA’s response to the draft report is included as
                   exhibit D of the audit report.

OIG Position      We agree with the actions taken and planned by FSA in response to
                  Recommendations 1, 2, 3, 4 and 5. Therefore we have accepted management
                  decisions for these recommendations. To reach management decisions on
                  Recommendations 6 and 7, FSA needs to address each recommendation and
                  provide us with its planned corrective actions. FSA in its response to finding 4
                  mentioned the accomplishments of the national outreach staff such as
                  developing an annual outreach accomplishment report and posting it on the
                  agency’s website, which we do give them credit for in this report. However,
                  FSA’s response does not address the fact that we found that some COs with
                  high concentration of minority farmers engaged in little or no outreach
                  activities. We interviewed minority farmers located in these COs who stated
                  that they were unaware of agency outreach activities. FSA employees at those
                  COs stated that outreach was not a priority for them. In addition, FSA state
                  outreach coordinators for the five States we visited informed us that they
                  received limited guidance from the national outreach staff and they in turn
                  provided little of no guidance to CO employees,




USDA/OIG-A/03601-11-AT                                                                    Page iv
Abbreviations Used in This Report

CO
  County Office........................................................................................................................................ 1
COC
  County Office Committee................................................................................................................... 11
CR
  Departmental Office of Civil Rights..................................................................................................... 1
FFI
  Fact Finding Inquiries ......................................................................................................................... 21
FSA
  Farm Service Agency............................................................................................................................ 1
FSA/OCR
  Farm Service Agency/Office of Civil Rights........................................................................................ 2
FY
  Fiscal Year ............................................................................................................................................ 5
IG
  Inspector General .................................................................................................................................. 2
LAA
  Local Administrative Area.................................................................................................................. 12
MAC
  Management of Agricultural Credit.................................................................................................... 34
MSDA
  Minority and Socially Disadvantaged Farmers Assistance ................................................................ 11
NIR
  National Internal Review .................................................................................................................... 34
OIG
  Office of Inspector General .................................................................................................................. 2
OL
  Operating Loan ................................................................................................................................... 34
SDA
  Socially Disadvantaged....................................................................................................................... 11
SED
  State Executive Director ..................................................................................................................... 12
SOP
  Standard Operating Procedures........................................................................................................... 18
USDA
  U.S. Department of Agriculture............................................................................................................ 1




USDA/OIG-A/03601-11-AT                                                                                                                           Page v
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1.           Summary of Progress Made Since 1997................................................................... 4

        Finding 1             Progress Made in Most Civil Rights Areas, but Additional Emphasis
                              Needed in the Areas of Application Processing and Minority Representation
                              at the County Office Level ...................................................................................... 4
                                   Recommendation 1 ........................................................................................ 16
                                   Recommendation 2 ........................................................................................ 16

    Section 2.           Departmental and Agency Civil Rights Offices..................................................... 18

        Finding 2             CR Should Conduct Civil Rights Compliance Reviews ....................................... 18
                                  Recommendation 3 to CR .............................................................................. 20
                                  Recommendation 4 to CR .............................................................................. 20
        Finding 3             FSA/OCR Should Improve Its Procedures for Monitoring Program
                              Discrimination Complaints ................................................................................... 21
                                  Recommendation 5 ........................................................................................ 23

    Section 3.           Outreach Coordination............................................................................................ 24

        Finding 4             FSA’s National Outreach Program Should Coordinate With County
                              Officials to Reach Local Minority Communities .................................................. 24
                                  Recommendation 6 ........................................................................................ 26
                                  Recommendation 7 ........................................................................................ 27

Scope and Methodology........................................................................................................................ 28

Exhibit A – Sites Visited ....................................................................................................................... 31

Exhibit B – Status of 13 Recommendations From the Prior Audit Report..................................... 32

Exhibit C – General Population Statistics for Counties Reviewed................................................... 36

Exhibit D – Agency Response .............................................................................................................. 39




USDA/OIG-A/03601-11-AT                                                                                                                   Page vi
Background and Objectives
Background         The Farm Service Agency (FSA), an agency of the U.S. Department of
                   Agriculture (USDA), was established under the provisions of the Federal
                   Crop Insurance Reform and Department of Agriculture Reorganization Act of
                   1994, Public Law 103-354, incorporating programs from USDA agencies
                   (the Agricultural Stabilization and Conservation Service, the Federal Crop
                   Insurance Corporation (currently Risk Management Agency)) and farm
                   lending activities of the Farmers Home Administration (currently Rural
                   Development).

                   FSA’s programs are delivered through an extensive network of field offices,
                   including over 2,500 USDA service centers and 51 State offices including
                   Puerto Rico. State and county office (CO) elected committees, comprised of
                   farmers in the local area, are responsible for overseeing FSA services
                   delivered to their local farming communities.

                   Civil Rights Act of 1964

                   On July 2, 1964, Congress enacted the Civil Rights Act of 1964—the most
                   comprehensive piece of civil rights legislation since Reconstruction. One
                   provision of the Civil Rights Act offers protection to individuals excluded
                   from participation in, denied the benefits of, or otherwise subjected to
                   discrimination under federally funded programs or activities. That provision,
                   Title VI of the Civil Rights Act, provides that no person in the United States
                   shall, on the ground of race, color, or national origin, be excluded from
                   participation in, be denied the benefits of, or be subjected to discrimination
                   under any program or activity receiving Federal financial assistance. To
                   enforce Title VI, Congress vested the President with the authority to approve
                   all rules, regulations, and orders issued by Federal agencies. The President
                   delegated his Title VI coordination functions to the Attorney General in a
                   series of executive orders.

                   Title VI remains the broadest instrument available to eliminate racial and
                   ethnic discrimination. Title VI applies to approximately 27 Federal agencies
                   administering more than 1,000 programs and distributing, annually, an
                   estimated $900 billion in Federal financial assistance.

                   Office of Civil Rights (CR)

                   CR, which reports to the Assistant Secretary for Civil Rights, has
                   responsibility for ensuring compliance with all civil rights and related laws
                   by all agencies and for all programs of the Department; coordinating
                   administration of civil rights laws (including regulations) within the
                   Department for employees of, and participants in, programs of the
USDA/OIG-A/03601-11-AT                                                                    Page 1
                   Department; and ensuring necessary and appropriate civil rights components
                   are properly incorporated into all strategic planning initiatives of the
                   Department and agencies of the Department.

                   Farm Service Agency – Office of Civil Rights (FSA/OCR)

                   FSA/OCR provides overall leadership and direction in the development and
                   implementation of civil rights policy and programs for FSA. FSA/OCR’s
                   responsibilities include preparing agency position statements for outstanding
                   civil rights complaints and maintaining liaison with appropriate agencies and
                   USDA field offices. In addition, FSA/OCR evaluates and monitors agency
                   performance relative to compliance with civil rights rules and regulations
                   through reviews, surveys, and studies.

                   Pigford v. Glickman

                   Farmers and ranchers representing a protected class have filed five major
                   lawsuits against USDA since 1997, alleging racial or gender discrimination in
                   FSA farm programs. Four of these lawsuits are still pending, but Pigford v.
                   Glickman was settled in 1999 when the class action plaintiffs and USDA
                   entered into a 5-year consent decree; as of February 14, 2005, more than
                   13,762 claimants had received compensation totaling more than $839 million.

                   Outreach

                   The outreach program makes programs and services accessible to all and
                   ensures that all customers receive equal and timely access to all of FSA’s
                   programs and services.

                   FSA places special emphasis on the outreach of underserved customers
                   because they understand and recognize that certain groups have not
                   participated in, or have received limited benefits from, FSA’s programs. The
                   goal is to increase the participation of the underserved customers, including
                   limited-resource farmers, in FSA’s programs with special emphasis on those
                   who are members of racial minority groups.

                   Office of Inspector General (OIG) Audit Reports

                   Beginning in 1996, OIG initiated a review of the Department’s processing of
                   program discrimination complaints.         This review was based on a
                   congressional request concerning the status of complaints and timeframes for
                   resolving these complaints. Also, in 1996, the Secretary asked the Inspector
                   General (IG) to review the Department’s handling of complaints brought by
                   minority farmers concerning FSA’s farm loan programs (phase I). The
                   Secretary specifically requested the IG to address (1) the number and status
                   of farm loan complaints; (2) minority participation (national, State, and
USDA/OIG-A/03601-11-AT                                                                   Page 2
                                      county levels); (3) FSA/OCR complaint process; (4) FSA’s outreach; and
                                      (5) technical assistance. Issues disclosed in phase I led to additional reviews
                                      and requests from the Secretary of Agriculture to evaluate CR’s performance
                                      (phases II-VII). Eight audit reports were issued from 1997 to 2000. The
                                      reports contain more than 40 findings and 119 recommendations
                                      (13 addressed to FSA). During this review, we followed up on the
                                      13 recommendations addressed to FSA.

Objectives                            Our audit was undertaken to assess the progress FSA has made towards
                                      repairing its relationship with minority farmers.

                                      We sought to determine (1) if FSA had implemented the 13 recommendations
                                      from the prior OIG Audit Report, 4 (2) if FSA conducts outreach activities
                                      and provides sufficient technical assistance to minority farmers for
                                      loanmaking and loan servicing, and (3) if more minorities now participate in
                                      FSA’s farm programs.




4
    Minority Participation in FSA’s Farm Loan Programs – Phase II, Audit Report No. 50801-3-Hq, dated September 1997.

USDA/OIG-A/03601-11-AT                                                                                                  Page 3
Findings and Recommendations
Section 1.   Summary of Progress Made Since 1997

Finding 1           Progress Made in Most Civil Rights Areas, but Additional
                    Emphasis Needed in the Areas of Application Processing and
                    Minority Representation at the County Office Level

                    In our prior audit, we reported several issues which affected minority
                    participation in FSA loan programs. We stated that (1) FSA had an
                    outstanding backlog of civil rights complaints, (2) applications from minority
                    applicants took more days to complete than applications from nonminority
                    applicants, (3) delinquent minority borrowers received a lesser number of
                    loan servicing actions than delinquent nonminority borrowers, and (4) FSA
                    needed to improve its relationship with the minority farming community.
                    This occurred because of the lack of experienced personnel to conduct
                    investigations of civil rights complaints, lack of technical assistance available
                    to minority applicants and borrowers, and the lack of diversity in FSA
                    offices. As a result, FSA had a backlog of 474 civil rights complaints in 1997
                    (average age of the majority of these complaints were 703 days, with the
                    oldest compliant being filed in 1986), it took 12 days longer to complete
                    minority applications, delinquencies were higher for minority borrowers than
                    nonminority borrowers, and minority borrowers were reluctant to enter into
                    FSA offices to apply for loans.

                    During this review, we obtained data on open civil rights complaints from
                    August 1997 to January 2005 and compliance reviews conducted by CR since
                    1997 and we evaluated FSA/OCR operations and its role in processing and
                    monitoring complaints. We also visited 5 FSA State offices and 10 FSA loan
                    service centers. The 10 loan service centers process and service direct loans
                    for 65 counties in the 5 States we visited. At the State offices and loan
                    service centers we reviewed loan servicing actions, debt settlements, and
                    foreclosure actions for disparate treatment of minority farmers. Also, at the
                    loan service centers we reviewed loan applications and interviewed FSA’s
                    borrowers and loan applicants from the 65 counties for disparate treatment.
                    We also interviewed FSA State office and county office employees and
                    evaluated their outreach effects.

                    We compared the results of this review to the conditions we found in 1997
                    and concluded that there have been improvements at CR and FSA.




USDA/OIG-A/03601-11-AT                                                                       Page 4
                   Progress Made in Reducing the Backlog of Program Complaints -
                   Fewer Complaints Filed in 2004

                   In our 1997 audit, we determined that FSA had an outstanding backlog of 474
                   unresolved civil rights complaints and a civil rights complaint system that
                   was poorly prepared to handle the backlog. This occurred because there was
                   no accountability within the Department. No fewer than three staff groups in
                   the Department were responsible for segments of the complaints process, but
                   no group exercised overall authority and no group was constrained by a
                   deadline. The FSA staff assigned to review complaints operated from an
                   obsolete handbook; the departmental staff that determines the validity of
                   complaints did not follow up with FSA to ensure the compliant was being
                   investigated; and the departmental agency that oversees civil rights
                   compliance was not monitoring FSA's caseload adequately to report the
                   backlog. Although FSA formed an Office of Civil Rights to monitor
                   complaints and determine their status, the agency continued to experience a
                   large influx of complaints in 1998 and 1999 (1,395).

                   From January 1997 to March 2000, OIG issued a series of reports critical of
                   CR’s operations and its efforts to address the backlog of discrimination
                   complaints. In response to our audit recommendations, CR made reducing
                   the backlog of complaints its foremost priority. Those actions included
                   (1) establishing an ad hoc task force to work on the backlog, (2) hiring
                   contract investigators and its own investigators to conduct field reviews of
                   the complaints and discontinuing the use of FSA employees to investigate
                   complaints, (3) reorganizing CR and hiring experienced managers to run its
                   operations, (4) appointing directors with civil rights experience to lead the
                   agency, (5) redesigning the process for reviewing and resolving complaints,
                   and (6) revising and reissuing Departmental regulations on civil rights
                   activities.

                   Although we did not evaluate CR’s complaint processing operations in this
                   review, we obtained data on civil rights complaints and interviewed CR
                   officials. We found that the number of outstanding complaints for FSA has
                   been greatly reduced as a result of CR’s actions.

                   From fiscal year (FY) 1997 to FY 2004, (including the 474 backlog as of
                   August 1997) 2,765 complaints have been filed against FSA. The number of
                   outstanding complaints stood at 113 as of January 26, 2005 and 107 of these
                   complaints were just over 180 days. Between 1997 and January 2005 the CR
                   resolved about 2,652 complaints (2,765 – 113) and the number of complaints
                   filed has steadily decreased since FY 2000. Eight hundred and seven
                   complaints were filed in FY 1999 while only 51 were filed in FY 2004 (see
                   chart 1).



USDA/OIG-A/03601-11-AT                                                                   Page 5
                               Number of FSA Program Complaints Filed Between
                                            FY 1997 and FY 2004

 900



 800                     807


 700



 600
              588


 500



 400



 300
                                           279

                                                 226
 200
                                                                      162
                                                                                178
 100

                                                                                              51
  0
         FY 1998    FY 1999           FY 2000          FY 2001   FY 2002    FY 2003      FY 2004




       Chart 1

                       Based on our review of data provided by CR, we concluded the CR has made
                       significant progress in reducing the backlog of FSA discrimination
                       complaints from 1997 to 2005.

                       Minimal Improvement in Loan Processing Times, but Number of
                       Loans Made to Minority Applicants Increased Since 1997

                       In 1997, we found that applications of minority applicants took on average 12
                       more days to complete than applications of nonminority applicants. For FY
                       2003, loan processing times were reduced but it took on average 10 more
                       days to close on minorities loan applications. For the five States we visited
                       (which were also reviewed in 1997), the number of loan applications from
                       minorities has increased from 13 percent (1996) to 25 percent (2003) of the
                       total applications. Although the approval rates are slightly down for
                       minorities, the number of approved applications has increased.

                       Application Processing Times

                       In 1997, we found that both minority and nonminority applicants questioned
                       the length of time it took to process loan applications. Also, loan applicants
                       complained that they were not given the technical assistance needed to
                       complete their application and obtain funds in time to plant their crops and
                       achieve optimum production. Total 1997 state-wide data for the same
USDA/OIG-A/03601-11-AT                                                                             Page 6
                   five States reviewed in this audit showed that applications from minority
                   farmers took 12 more days on average to process from receipt to loan closing
                   (92 days for minorities and 80 days for nonminorities) for approved
                   applications.

                   In 1997, at certain locations, we noted that it took minorities longer than
                   nonminorities to complete an approved application with the greatest disparity
                   being from application receipt to completion. Because an applicant's request
                   for loan funds cannot be processed until a completed application is submitted,
                   a delay in completing the application places the applicant lower on the list of
                   expectant borrowers and could, if funds run out, leave the applicant unfunded
                   until the next FY. We concluded that actions were needed to reduce the
                   length of time it takes for farmers to complete their applications.

                   For FY 2003, we still found that the application processing times for
                   nonminority farmers were lower when compared to minority farmers for the
                   five States in our review. Application processing for nonminority farmers
                   took about 55 days on average to process from receipt to loan closing, and
                   about 65 days for minorities. See table 1 below for the number of days from
                   receipt to loan closing for approved applications for FY 2003.


                            FY 2003 Statewide Averages of Days From Receipt of Approved
                                            Applications to Loan Closing
                                                               RACE
                      STATE                    African       American       Asian
                                     White                                             Hispanic
                                              American        Indian      American
                   Alabama             43         55            64           N/A          70
                   Arkansas            43         37            68            28          41
                   Mississippi         47         61           N/A           N/A          56
                   Oklahoma            72         70            80            89         105
                   Texas               69         72            75           N/A          71
                   Average Days        55         59            72            59          69
                   Total Avg. for
                   Minorities          65

                   Table 1

                   While application processing times for minority applicants continue to lag
                   behind nonminority applicants, the application processing times for certain
                   minority groups show a greater disparity than others which may indicate a
                   need for more targeted technical assistance.

                   Although, our reviews of the loan application process at 10 loan service
                   centers did not disclose any systemic discriminatory practices, we did find


USDA/OIG-A/03601-11-AT                                                                     Page 7
                   that in all 5 States certain minority groups experienced more delays in closing
                   their loans than nonminority applicants.

                   For example, in Oklahoma where there was a greater disparity in loan
                   processing days for certain minority groups than in the other four States we
                   visited, we found that the majority of the processing days were after the loan
                   was approved by FSA officials. From loan approval to loan closing it took
                   60 days, 71 days, and 78 days respectively for American Indians, Asian
                   Americans, and Hispanics to close on a loan, as compared to 55 days for
                   nonminorities.

                   For the two loan service centers visited in Oklahoma, we found three
                   applicants (two minorities and one nonminority) that experienced long delays
                   in closing their loans. One minority applicant was given the opportunity to
                   clear up credit report issues that would have otherwise resulted in a denied
                   loan. Another minority applicant’s loan application took 327 days to close
                   because the applicant was waiting on the closing attorney to finish title work
                   for the loan. The nonminority’s application was delayed because funds were
                   not available to close the loan.

                   Overall, we did not find any disparities in FSA's lending practices. To reach
                   this conclusion, we reviewed FY 2003 loan applications for nonminorities
                   and minorities and analyzed the data to determine whether minorities, in
                   comparison to nonminorities, received smaller loan amounts than requested;
                   had numerous “subject to” provisions; received higher interest rates or
                   shorter repayment periods; or endured longer delays in the processing of their
                   loan applications. These applications included those that were approved,
                   rejected, or withdrawn by the applicant. We also interviewed loan applicants
                   to assess whether they received technical assistance when applying for loans
                   and whether they felt they were treated fairly when they visited the loan
                   service center.

                   Number of Loans to Minorities

                   The 5 States we visited for this review received 5,607 applications for direct
                   loans in FY 2003. Specifically, minority applicants submitted
                   1,424 applications (25 percent) and nonminority applicants submitted
                   3,949 applications (70 percent). The remaining applications (5 percent) were
                   received from applicants who did not indicate a race on the application and,
                   therefore, were not included in our analysis. Of the 1,424 applications from
                   minorities, 803 (56 percent) were approved. Of the 3,949 applications from
                   nonminorities, 2,544 (64 percent) were approved.

                   In contrast, for FY 1996, the five States received 5,127 applications for direct
                   loans. Minority applicants submitted 642 applications (13 percent) and
                   nonminority applications submitted 4,485 applications (77 percent). Of the
USDA/OIG-A/03601-11-AT                                                                      Page 8
                   642 applications from minorities, 403 (63 percent) were approved. Of the
                   4,485 applications from nonminorities, 3,016 (67 percent) were approved.
                   (See table 2.)


                  FY 1996 and FY 2003 Approved Direct Farm Loan Applications for Minority
                                 and Nonminority Applicants at States Visited
                                          Minorities                   Nonminorities
                               FY 1996          FY 2003           FY 1996        FY 2003
                 State         Total Appr Total Appr Total              Appr Total Appr
                               Appl             Appl           Appl            Appl
                 Alabama          28        16     241     140    170      120  382    236
                 Arkansas        118        79     166      77    760      514  867    571
                 Mississippi     122        84     188      88    589      478  537    358
                 Oklahoma         69        44     559     367    635      455  844    605
                 Texas           305      180      270     131  2,331 1,449 1,319      774
                 TOTAL           642      403    1,424     803  4,485 3,016 3,949 2,544
                 Note: Appl = Applications and Appr = Approved

                   Table 2

                   FSA has made significant progress in increasing the number of minority
                   applicants. Improvement in both minority participation and application
                   processing times can be attributed in part to FSA’s implementation of our
                   prior recommendation to increase technical assistance to all applicants but
                   more efforts are needed to focus on providing technical assistance to those
                   minority groups that continue to experience delays in greater disproportion
                   than other applicants.

                   Number of Delinquent Minority Borrowers Has Decreased

                   In our prior audit, we found a disproportionate number of nonminority
                   borrowers that received two or more loan servicing decisions, whereas, a
                   disproportionate number of minority borrowers received no more than one of
                   these decisions. This occurred because of the lack of followup with minority
                   borrowers who did not respond to notices concerning availability of loan
                   servicing. Borrowers were generally notified of the availability of loan
                   service programs. However, in the absence of specific requirements to
                   followup, the staff did not actively followup with those borrowers who either
                   did not respond or did not actively seek loan servicing. In 1997, we found
                   that minority borrowers did not actively seek loan servicing often because of
                   their negative experiences with FSA. As a result of the lack of loan servicing
                   the percent of accounts that were delinquent was higher for minorities then
                   for nonminorities.

                   For this review, the number of delinquent minority borrowers for the five
                   States visited had decreased significantly when compared to the number of
USDA/OIG-A/03601-11-AT                                                                    Page 9
                   delinquent minority borrowers for FY 1996. In FY 2003 the number of
                   delinquent minority borrowers dropped to a low of 110, about 8 percent of
                   the FY 1996 level of 1,371. Likewise, the number of delinquent nonminority
                   borrowers was reduced from 9,323 to 343. (See table 3.)


                           Number of Delinquent Minority Borrowers for States Visited
                                                  Minorities           Nonminorities
                          State              FY 1996     FY 2003   FY 1996    FY 2003
                                            Delinquent Delinquent Delinquent Delinquent
                          Alabama                   87         13        432          11
                          Arkansas                 153         17      1,030          61
                          Mississippi              555         26      1,807          33
                          Oklahoma                 188         24      2,043          67
                          Texas                    388         30      3,615         171
                          Total                  1,371        110      9,323         343

                         Table 3

                   At the 10 loan service centers we visited, we reviewed delinquent borrowers
                   (minority and nonminority) case files to determine whether they received or
                   were offered loan servicing. For those borrowers who received loan
                   servicing, we analyzed the data to determine if minorities in greater
                   percentages than nonminorities, had their applications for loan servicing
                   rejected; were not offered mediation, loan preservation servicing, or debt
                   settlement; or experienced long delays in the processing of their servicing
                   requests. We also interviewed minority and nonminority borrowers to access
                   whether they received technical assistance when applying for loan servicing
                   and if felt they were treated fairly when they visited the loan service center.
                   We did not find any disparate treatment in loan servicing for minority
                   borrowers as compared to nonminority borrowers.

                   Agency officials attribute the decrease in delinquency to several factors. A
                   tracking system developed in response to a prior audit recommendation helps
                   to monitor the servicing of farm loan accounts, but, overall farm loan
                   delinquencies have decreased because of an increase in farm program benefit
                   payments, a shift to commercial lenders, and more emphasis being placed on
                   loan servicing for delinquent borrowers. For minority borrowers, the decrease
                   can also be attributed to better servicing, greater awareness of program
                   entitlements and opportunities, and the need to provide technical assistance to
                   all borrowers. Also, many minority borrowers’ loans were canceled or were
                   forgiven as a result of the Pigford v. Glickman consent decree.




USDA/OIG-A/03601-11-AT                                                                   Page 10
                                    FSA Initiatives to Improve Relations with Minority Farmers

                                    In our prior audit, we found that FSA needed to improve its relationship with
                                    the minority farming community. This occurred because minority advisors to
                                    the county office committee (COC), appointed to the committee by COC
                                    members in counties that have eligible minority voters of 5 percent or more
                                    but do not have minority representation on the committee, were not effective.
                                    Although their main duty is to increase awareness within the minority
                                    community of FSA activities and to ensure that minority concerns are
                                    understood by the county office committee, minority advisors rarely initiated
                                    efforts to visit minority farming organizations or minority farmers to inform
                                    them about FSA farm programs. Also, minority advisors were not were
                                    known in their farming communities. In addition, minority farmers attributed
                                    the lack of diversity in the FSA county offices as a reason for their
                                    diminished relationship with FSA. As a result, minorities were reluctant to
                                    enter county offices to apply for loans.

                                    The number of minority COC members has increased since 1997. On a
                                    nationwide basis, the COC election results showed an 82-percent increase in
                                    minority membership in COC, up from 191 (2.4 percent) in 1997 to
                                    348 (4.4 percent) in 2004.

                                    In addition, FSA has taken a number of actions to improve its relations with
                                    minority farmers. Below, are a few of those actions that came to our
                                    attention during our review.

                                     •         FSA established the Office of Minority and Socially Disadvantaged
                                               Farmers Assistance (MSDA) to work with minority and socially
                                               disadvantaged farmers who have concerns and questions about loan
                                               applications filed with local offices.

                                     •         On January 18, 2005, the Secretary of USDA issued guidelines
                                               pursuant to the 2002 Farm Bill 5 to ensure that FSA COCs are fairly
                                               representative of the agricultural producers covered by the relevant
                                               county or counties, including fair representation of socially
                                               disadvantaged (SDA) farmers and ranchers on FSA COCs.

                                     •         FSA Notice Farm Loan Program – 362 6 required States to designate
                                               an official to review at least 50 percent of rejected or withdrawn SDA
                                               loan applications for each quarter in each office of their jurisdiction.
                                               If any improper rejections or withdrawals are found, the official is
                                               required to review all rejected and withdrawn SDA loan applications


5
  Section 10708 of the Farm Security and Rural Investment Act of 2002 (Public Law 107-171).
6
  FSA Notice Farm Loans Program – 362 Equitable Treatment in processing loan applications expires on November 1, 2005. FSA has required this review
since FY 1999 with the issuance of annual notices.

USDA/OIG-A/03601-11-AT                                                                                                                  Page 11
                                                 in the approval official’s coverage area and notify the State executive
                                                 director (SED) of any problems detected.

                                      MSDA

                                       FSA established MSDA to work with minority and socially disadvantaged
                                       farmers who have concerns and questions about loan applications filed with
                                       local offices.

                                       Since September 2002, MSDA has been responsible for several initiatives to
                                       improve relations with minority farmers. These initiatives include USDA’s
                                       Minority Farm Register, a toll free telephone number to field inquiries about
                                       FSA programs, and a FSA customer comment card survey. From
                                       September 2002 to November 2004, MSDA’s data shows it has received
                                       2,428 calls with an average response time of 1½ days. Many of the
                                       1,126 calls (46 percent) were inquiries for FSA farm loan programs.

                                       FSA literature on USDA’s Minority Farm Register states that it is a tool to
                                       promote equal access to USDA farm programs and services for minority
                                       farmland owners, farmers, ranchers, tenants, and other individuals with an
                                       agricultural interest. Participants may receive information or be personally
                                       contacted through USDA outreach efforts.

                                       Data provided by MSDA shows that as of December 17, 2004,
                                       672 persons had registered. African Americans, at 45 percent (303 persons),
                                       represent the largest participating minority group.

                                       The FSA customer comment card survey is being conducted in 29 States and
                                       43 counties. Data provided by MSDA shows that the majority of customers
                                       rate FSA and CO employees very high in customer service
                                       (81.9 percent), very high in response time (82.6 percent), and very high in
                                       employee courtesy (92.5 percent). 7

                                       Efforts to Increase Minority Membership in COCs

                                       On January 18, 2005, the Secretary of Agriculture issued guidelines pursuant
                                       to the 2002 Farm Bill 8 to address COC election outreach efforts, procedures
                                       for nomination and election of COC members, and reporting and
                                       accountability requirements. These guidelines specify that COCs will
                                       annually review the local administrative area (LAA) boundaries to ensure
                                       fair representation of SDA producers in the area, allowing sufficient time for
                                       public input of proposed LAA boundary changes prior to FSA State
                                       Committee review. In specific instances, FSA Headquarters in Washington,
                                       D.C., may conduct further review of LAA boundary changes if further
7
    Customers rate FSA employees’ performance from 1 to 5, with 5 as very high.
8
    Section 10708 of the Farm Security and Rural Investment Act of 2002 (Public Law 107-171).

USDA/OIG-A/03601-11-AT                                                                                          Page 12
                                    review is sought by either the public or otherwise deemed appropriate. FSA
                                    COs shall actively locate and recruit eligible candidates identified as SDA
                                    farmers and ranchers as potential nominees for the COC elections using any
                                    reasonable means necessary, including the development of partnerships with
                                    community-based organizations.

                                    Although the uniform guidelines do not contain a provision for the
                                    appointment of a SDA voting member (as stated in the proposed
                                    guidelines), 9 the guidelines do state the Secretary may consider whether to
                                    issue written provisions providing for such appointments. Table 4 below
                                    shows the 1997 COC membership compared to the 2004 COC membership.


                                                                       COC Membership
                                                 Race                        1997 Membership                      2004 Membership

                                                                                7,957 (97.6%)                        7,524 (95.6%)
                                  White
                                                                                    37 (.5%)                             47 (.6%)
                                  African American
                                                                                    65 (.8%)                           179 (2.3%)
                                  Hispanic
                                                                                    21 (.3%)                             18 (.2%)
                                  Asian-American
                                                                                    68 (.8%)                           104 (1.3%)
                                  American Indian
                                                                                      8,148                                7,872
                                  TOTAL

                                Table 4


                                    On a nationwide basis, COC election results showed an 82-percent increase
                                    in minority membership in COC, up from 191 (2.4 percent) in 1997 to
                                    348 (4.4 percent) in 2004. While the election results show overall increase in
                                    minority membership in the COC, FSA needs to continue its outreach efforts
                                    to emphasis minority participation in the COC election process.

                                    Number of Minority Employees

                                    FSA COs 10 are often less diverse than the communities they serve. In 1997
                                    we recommended that FSA work to increase the number of minority

9
  This provision was removed due to the large number of negative comments to the proposed guidelines, Federal Register Volume 69, No. 158, pg. 51052,
Tuesday, August 17, 2004. The comments concerned the Secretary’s option under the 2002 Farm Bill to issue provisions allowing for the appointment of a
member representing the interest of SDA farmers and ranchers to particular committees.
10
  FSA CO staff for this review includes CO employees and FSA loan officials. CO employees, unlike FSA loan officials, are not
Federal employees and are employed by the local county executive director and the COC.
USDA/OIG-A/03601-11-AT                                                                                                                    Page 13
                                  employees in COs where minority groups are underrepresented. The agency
                                  responded by notifying the appropriate groups of employment opportunities
                                  as they became available. Despite these efforts, our present audit found that
                                  many COs still do not reflect their communities.

                                  Of the 10 COs we reviewed, we found that four were significantly less
                                  diverse than the communities they serve 11 . For instance, the Guadalupe CO
                                  in Texas serves nine counties where 49 percent of the population is Hispanic
                                  or Latino, yet all of its employees are white. The Monroe CO in Alabama
                                  serves 12 counties where the population averages 32-percent African
                                  Americans (including three counties where blacks make up more than
                                  50 percent of the population), yet the county employs only one black (one of
                                  nine). The Lincoln CO in Mississippi serves 10 counties where the
                                  population is 49-percent African American (including two counties where
                                  blacks make up more than 80 percent of the population), yet only a single CO
                                  employee (1 of 6) is an African American. Finally, the Cross CO in
                                  Arkansas serves two counties where the population averages 39-percent
                                  African Americans, yet the CO employs only one African American worker
                                  (1 of 9). See exhibit C for census data for the county we visited.

                                  Because these COs act as the point of contact for minority farmers inquiring
                                  about FSA services (and thus represent the agency’s visible face), their lack
                                  of diversity has been a sensitive issue for minorities applying for FSA farm
                                  loans.

                                  However, FSA has recognized a need for a more diverse workforce, and is
                                  using its Career Interning Program to attract candidates with diverse
                                  experiences, academic training and competencies for careers in Federal
                                  Service. Also, on March 31, 2005, FSA entered into a cooperative agreement
                                  with the National Society for Minorities in Agriculture, Natural Resources,
                                  and Related Sciences to increase minority students’ awareness about career
                                  opportunities at USDA.

                                  While FSA’s efforts to diversify its workforce are commendable, it still needs
                                  to monitor underrepresented groups and develop plans to improve
                                  representation.

                                  State Review of Rejected and Withdrawn SDA Applications

                                  FSA Notice Farm Loan Program – 328 required States to designate an
                                  official to review at least 50 percent of rejected or withdrawn SDA loan
                                  applications for each quarter in each office of their jurisdiction. If any
                                  improper rejections or withdrawals are found, the official is required to


11
     Analyses were based on the 2000 General Population Census Data.
USDA/OIG-A/03601-11-AT                                                                                 Page 14
                   review all rejected and withdrawn SDA loan applications in the approval
                   official’s coverage area and notify the SED of any problems detected.

                   With the advice of the farm loan chief, the designated official should take
                   action on improperly rejected or withdrawn SDA loan applications to correct
                   any errors and recommend appropriate personnel actions to the SED. These
                   actions may include training or revocation of loan approval authority for
                   approval officials responsible for rejections and withdrawals that appear to
                   reflect a pattern or practice of discrimination against SDA applicants. Also,
                   the designated official is responsible for reviewing the reasons and
                   explanations regarding why decisions have not been made in a timely
                   manner on completed loan applications.

                   During our review at the five FSA State Offices this recently initiated FSA
                   process to review rejected and withdrawn SDA applications came to our
                   attention. Although our review steps did not include an assessment or
                   verification of this process, we believe it was noteworthy to mention an FSA
                   initiative to ensure SDA applications are processed properly. FSA’s FY
                   2004 reports for the five States in our audit and the States’ offices reported
                   the following:

                   •     Alabama reported it reviewed 109 of 111 (98 percent) withdrawn or
                         rejected SDA loan applications and found that no SDA application was
                         improperly rejected or withdrawn.

                   •     Arkansas reported it reviewed more than 50 percent of withdrawn or
                         rejected SDA applications and found no evidence of inequitable
                         treatment in the processing of the applications.

                   •     Mississippi reported it reviewed 100 percent (163) of withdrawn or
                         rejected SDA applications and found that the applications were
                         properly withdrawn or rejected.

                   •     Oklahoma reported that no disparate treatment was found in its review
                         of 27 withdrawn or rejected SDA applications.

                   •     Texas reported it reviewed 47 of 96 rejected or withdrawn SDA loan
                         applications and found no improper withdrawals or rejections.

                   We conclude that FSA has made many substantive changes and significant
                   progress towards addressing minority farmers’ concerns, however, it needs to
                   continue to decrease the disparity in application processing times for
                   minority and nonminority applicants and it needs to tracks and analyzes
                   workforce diversity trends.



USDA/OIG-A/03601-11-AT                                                                   Page 15
Recommendation 1

                   Develop a strategy to decrease the disparity in application processing times
                   for minority and nonminority applicants for those locations which show the
                   greatest disparity in processing times.

                   Agency Response. In its November 2, 2005, response, FSA stated:

                          FSA Notice FLP-400 “Equitable Treatment in Processing Loan
                          Applications,” dated October 10, 2005, has been issued
                          emphasizing the importance of processing loan applications in
                          a timely manner. This notice directs that a minimum of
                          50 percent of the rejected applications from * * * SDA be
                          reviewed. In addition, FSA Farm Loan Chiefs are directed to
                          monitor loan processing timeframes. * * * SED are instructed
                          to manage staff resources to minimize loan application
                          processing delays. In addition, each SED is required to review
                          the loan application timeframes for both SDA and non-SDA
                          applicants. States are able to monitor the processing times for
                          SDA and non-SDA applicants by use of a web-focus report.
                          Each State is required to submit a summary of findings and
                          corrective actions, if necessary, to the National office. The Loan
                          Making Division will review these summaries and provide
                          guidance to States, as necessary, to ensure that any identified
                          inconsistencies are corrected.

                   OIG Position. We accept FSA’s management decision on this
                   recommendation.

Recommendation 2

                   Develop a system at the county office level that tracks and analyzes
                   workforce diversity trends, identifies and monitors any underrepresented
                   groups and implement a plan to improve representation.

                   Agency Response. In its October 25, 2005, response, FSA stated:

                          The Agency will review available data sources to track and
                          analyze workforce diversity at the county level. As
                          recommended, the Agency will seek approval from the
                          Department of Civil Rights, and the Office of the Chief
                          Information Officer, to expand USDA enterprise civil rights
                          solution; and, develop a companion analysis tool or leverage
                          another Federal asset as a long-term solution to satisfy this
USDA/OIG-A/03601-11-AT                                                                   Page 16
                         audit condition. The long-term solution is subject to the
                         availability of funding in * * * [FY 2006] appropriation in
                         which the Agency may complete this recommendation by
                         August 31, 2006. Therefore, under the fiscal constraints of the
                         FY 2006 continuing resolution, planning and coordination will
                         be started.

                   OIG Position. We accept FSA’s management decision on this
                   recommendation.




USDA/OIG-A/03601-11-AT                                                                Page 17
Section 2.              Departmental and Agency Civil Rights Offices


                                       Though CR has succeeded in substantially reducing the backlog of
                                       complaints identified in our 1997 report, we have identified several
                                       additional problems. At present, CR does not regularly perform civil rights
                                       compliance reviews to verify that USDA programs comply with civil rights
                                       statutes because most of its resources are devoted to processing complaints.
                                       Given the litigation currently pending against USDA, performing these
                                       reviews should be among the Department’s chief priorities. We also found
                                       that FSA/OCR management controls were ineffective for monitoring
                                       complaints. This is due to the lack of standard operating procedures (SOP)
                                       and frequent turnover in management. As a result, FSA cannot assure the
                                       Department that its role in the civil rights program complaints process is
                                       performed with due care and in a timely fashion.


Finding 2                              CR Should Conduct Civil Rights Compliance Reviews

                                       CR has not conducted compliance reviews of FSA programs in over 5 years
                                       to determine whether the agency’s practices comply with civil rights statutes.
                                       Since 1997, CR has committed its resources to reducing the backlog of
                                       complaints and has not had personnel and travel funds to simultaneously
                                       conduct compliance reviews. Without performing these compliance
                                       reviews—a necessary management control for detecting and remedying
                                       noncompliance with civil rights policies—CR cannot ensure that FSA
                                       programs are free of practices adversely affecting minorities.

                                       Title 7, Code of Federal Regulations, Subtitle A, part 15d.3,
                                       “Nondiscrimination in Programs or Activities Conducted by the U.S.
                                       Department of Agriculture,” states that the Director of the Office of Civil
                                       Rights shall evaluate each agency’s efforts to comply with Federal civil rights
                                       policies and shall make recommendations for improving such efforts. 12

                                       Departmental Manual 4330-001 states that CR is responsible for providing
                                       overall leadership and direction for the conduct of compliance reviews. 13 CR
                                       is also responsible for (1) conducting compliance reviews of agencies and
                                       their programs and activities, (2) establishing criteria for the selection of
                                       agencies and their sub-components that will undergo compliance reviews,
                                       (3) establishing criteria for the conduct of compliance reviews by USDA
                                       agencies, (4) directing and guiding the implementation of compliance action
                                       plans negotiated with agencies found to be in noncompliance,

12
     Part 15d – “Nondiscrimination in Programs or Activities Conducted by the U.S. Department of Agriculture”.
13
     Departmental Manual 4330-001, Chapter 5 – “Compliance Reviews”, dated October 18, 2000.

USDA/OIG-A/03601-11-AT                                                                                           Page 18
                                      (5) monitoring compliance review activity within the agencies, and
                                      (6) providing agencies with technical assistance and training.

                                      USDA’s recent history has included several serious accusations of
                                      noncompliance with Federal civil rights statutes. As a result of
                                      Pigford v. Glickman, USDA has recompensed black farmers more than
                                      $839 million for civil rights violations. Three other class action lawsuits have
                                      been filed alleging racial or gender discrimination in FSA farm programs—
                                      Garcia v. Glickman on behalf of Hispanic farmers; Keepseagle v. Glickman
                                      on behalf of American Indians; and Love v. Glickman on behalf of women.
                                      Dissatisfied with the Pigford settlement, African American farmers have filed
                                      a new lawsuit for $20.5 billion alleging continuing discrimination from
                                      1997 to 2004. 14

                                      In addition, numerous newspaper articles, television news accounts, and
                                      congressional hearings have chronicled the plight of the African American
                                      farmer and past discriminatory practices by USDA.

                                      Given the attention and scrutiny Department officials and FSA employees
                                      have experienced since 1997, it would be in the best interest of the
                                      Department for CR to allocate sufficient resources to conduct compliance
                                      reviews. Yet since 1995, the Department has conducted reviews only in
                                      1997, 1998, and 1999. No reviews have been initiated more recently, even
                                      though these older reviews resulted in some findings of noncompliance. For
                                      example, with regard to FSA, CR found that virtually all States reviewed in
                                      1998 and 1999 were lacking or had not implemented outreach plans,
                                      particularly one targeted to American Indians; were not collecting and
                                      maintaining program eligibility and participation data by race, ethnicity, and
                                      gender; and had staff in need of training on civil rights laws, program
                                      delivery, and procedures, such as how complaints are filed. The U.S.
                                      Commission on Civil Rights has also independently remarked and criticized
                                      USDA’s history of failing to conduct compliance reviews. 15

                                      Compliance reviews should be used as a management tool to provide
                                      assurance to the public that the Department is actively reviewing and
                                      monitoring implementation of FSA programs to detect and correct any
                                      noncompliance with civil rights policies. Also, compliance reviews should be
                                      targeted toward problem areas and used as a proactive tool to ward off future
                                      litigation. Criteria such as areas with a history of complaints and areas with a
                                      high concentration of minority farming communities should be used to select
                                      States and COs for compliance reviews.



14
   Keepseagle case has been certified as a class action, but no finding of liability has been made. Class certification was denied in both the Garcia and
Love.
15
   Draft Report: “Ten-Year Check-Up: Have Federal Agencies Responded to Civil Rights Recommendations,” dated June 12, 2003.

USDA/OIG-A/03601-11-AT                                                                                                                           Page 19
                   In 1997, we found that the CR backlog of FSA civil rights complaints had
                   risen to 474. We recommended that CR take immediate steps to reduce the
                   number of outstanding civil rights complaints. As of January 26, 2005, this
                   audit found that the number of unresolved complaints had fallen to
                   113. Because the number of civil rights complaints filed in FY 2004 has
                   decreased to 51—just 13 percent of its 1997 level of 380 and 6 percent of its
                   peak filings of 807 in FY 1999—we conclude that CR should commit its
                   resources to conducting compliance reviews of USDA programs including
                   FSA programs.

Recommendation 3 to CR

                   Commit resources to performing compliance reviews of USDA programs.

                   Agency Response. In its November 2, 2005, response, FSA stated:

                          In accordance with 7 [Code of Federal Regulations] CFR
                          15D.3 and DM 4330-001, Chapter 5, the Department’s Office
                          of Civil Rights has committed adequate resources to ensure that
                          in-depth and comprehensive compliance reviews are conducted.
                          Specifically, a compliance review of Rural Development’s
                          [Equal Employment Opportunity] * * * program and Rural
                          Housing Service’s program delivery is currently underway.
                          Further reviews are scheduled for the remainder of * * *
                          FYs 2006 and 2007.

                   OIG Position. We accept FSA’s management decision on this
                   recommendation.

Recommendation 4 to CR

                   Develop an action plan and establish timeframes for completing compliance
                   reviews of FSA programs.

                   Agency Response. In its November 2, 2005, response, FSA stated: “The
                   Department’s Office of Civil rights’ compliance review of FSA and its
                   programs will commence during the first quarter of FY 2007.”

                   OIG Position. We accept FSA’s management decision on this
                   recommendation.




USDA/OIG-A/03601-11-AT                                                                  Page 20
Finding 3                                FSA/OCR Should Improve Its Procedures for Monitoring Program
                                         Discrimination Complaints

                                         Management controls at FSA/OCR were ineffective for monitoring of
                                         program discrimination complaints. This occurred because of a lack
                                         managerial direction and written standard operating procedures and a
                                         frequent turnover in management. There have been 6 directors in 7 years—
                                         some with tenures as short as 6 months. FSA/OCR staff worked without
                                         comprehensive SOPs for tracking program complaints, meeting the
                                         Department’s 24-day deadline for conducting Fact Finding Inquiries (FFI)
                                         and preparing agency position statements, and liaising with FSA field offices.
                                         FSA/OCR cannot, as a result, assure the Department that its role in the civil
                                         rights program complaints process is performed with due care and in a timely
                                         fashion. Since the complaint process is one of FSA’s safeguards to ensure
                                         that all people are treated equally, irregularities or inconsistencies in that
                                         process could have significant legal consequences.

                                         FSA/OCR’s responsibility with regard to program discrimination complaints
                                         includes maintaining a database of FSA complaints filed with the
                                         Department, performing FFI 16 , and preparing the agency position
                                         statement 17 . FSA/OCR also conducts State Management Reviews to assess
                                         and analyze States’ efforts to meet their internal and external civil rights
                                         obligations.

                                         We found that FSA/OCR was not effectively tracking program complaints,
                                         meeting its 24-day deadline for FFIs, or liaising with FSA field offices.

                                         Tracking System

                                         Despite receiving fewer program complaints, FSA/OCR could not provide us
                                         with an accurate number of outstanding complaints or their status. This
                                         occurred because the assigned staff functioned without adequate guidance
                                         and was not provided procedures for developing and maintaining a database
                                         of complaints. As a result, FSA’s tracking system contained numerous
                                         errors, omissions, and inaccuracies, and we could not, in some instances,
                                         determine the date of the complaint, the reason it was brought, or its status.

                                         To determine the number of outstanding complaints for farm programs, we
                                         obtained a listing of outstanding complaints from the CR tracking system and
                                         reconciled it with the agency tracking system. The CR tracking system is the
                                         official database of complaints alleging discrimination in USDA. The
                                         complaints are first received by the Department and subsequently forwarded

16
     Inquires of agency personnel, review of pertinent agency records and documents; policies, procedures, notices, etc. relating to the allegation.
17
     Agency’s position on the merits of the allegation.

USDA/OIG-A/03601-11-AT                                                                                                                                 Page 21
                                   to the agencies to obtain the agency’s position statement. The CR tracking
                                   system showed a total of 129 FSA program discrimination complaints. While
                                   reconciling the 2 tracking systems, we noted 42 cases in which the
                                   information in one tracking system differed from the other. FSA had not
                                   reconciled its database to CR’s database to ensure that CR and FSA records
                                   were in agreement.

                                   We determined that FSA’s database did not have a record of complaint for
                                   19 open cases and did not reflect the resolution status for 6 others. The
                                   remaining 17 cases contained errors, but none that could not be easily
                                   resolved. Errors for the 17 cases included differences in the filing date, State
                                   and county data or omissions of this data. There were no procedures to
                                   validate the information recorded, nor was the information reconciled with
                                   the Department’s official record of outstanding complaints. FSA did not
                                   have procedures for a second party review of the data entered into its
                                   database.

                                   CR’s SOPs for Reconciliation of CR and USDA Agency Complaints states
                                   that the complaint database of the CR, Program Operations, is the official
                                   database of complaints alleging discrimination in USDA programs. It is
                                   critical that the Department maintain the integrity of its database and ensure
                                   that it provides accurate and timely information about all program
                                   complaints. Each agency head is responsible for cooperating with CR to
                                   accomplish this goal. 18

                                   Deadline for Fact Finding Inquiries

                                   FSA/OCR does not have procedures in place to track the status of complaints
                                   as they progress through the complaint review process. With a continuing
                                   turnover in directors, six directors in 7 years, FSA had not evaluated the time
                                   required to perform fact finding inquiries and prepare agency position
                                   statements. Furthermore, FSA/OCR does not have established timeframes
                                   for performing FFI and preparing agency position statements. When FSA
                                   receives a complaint from CR, it must perform a FFI, prepare agency position
                                   statement, and report back to CR. We found that FSA/OCR is not issuing
                                   Agency Position Statements on discrimination complaints within 24 days, as
                                   required by the Department. Instead, the average processing time in FY 2004
                                   was 119 days.

                                   Although FSA/OCR tracks the dates the complaint is received from CR until
                                   the agency position statement is forwarded to CR, it had not evaluated the
                                   processing times at each stage to determine why the delays were occurring.
                                   Therefore, FSA/OCR was not aware of whether the established 24-day
                                   processing time was sufficient. We determined that time delays occurred at
18
 “Standard Operating Procedures: Monthly Agency Reconciliation Meetings,” U.S. Department of Agriculture, Office of Civil Rights Program
Operations, dated December 15, 1999.

USDA/OIG-A/03601-11-AT                                                                                                                Page 22
                   various points throughout the process. Without clear procedures for tracking
                   the complaints received from OCR, cases were not always timely forwarded
                   to the field office to conduct the inquiries. Also, the field office experienced
                   delays in obtaining data from the State and County program offices.

                   Liaison with FSA Field Offices

                   We also noted that FSA/OCR did not keep FSA field offices informed of the
                   status of open complaints. This occurred because FSA did not have
                   procedures for when and how the State offices would be kept informed of the
                   status of open complaints. Our review at 5 State offices and 10 service
                   centers revealed that FSA/OCR did not consistently inform the States of the
                   status of open program discrimination complaints. All five States agreed that
                   they were generally notified when a complaint was being investigated but
                   were not kept informed as the complaint process progressed or when the
                   complaint had been resolved or closed.

                   In October 2004 FSA/OCR named a permanent director. In response to the
                   concerns raised during our audit, the new director drafted changes in the
                   FSA/OCR’s operations to improve the office’s performance, including new
                   SOPs for each branch, new procedures for conducting State management
                   reviews, and an improved system for tracking and reconciling complaints
                   with CR. The director is also working with CR to determine the sufficiency
                   of the 24-day timeframe from completing the agency position statement and
                   establishing when the 24-day timeframe begins.

                   We reviewed the draft procedures and found that, when implemented, the
                   procedures will provide FSA/OCR with more effective management controls
                   to ensure timely completing of agency position statements and a more
                   effective monitoring system tracking outstanding complaints.

Recommendation 5

                   Finalize the draft procedures so that a uniform system is established for
                   FSA’s role in the processing and resolution of program complaints.

                   Agency Response. In its October 25, 2005, response, FSA stated: “We
                   are providing you with a * * * SOP for conducting State Management
                   Reviews and a SOP for processing program complaints. Both SOPs are dated,
                   September 30, 2005, and were signed and approved by the Director of FSA/
                   OCR. These SOPs should closeout recommendation 5.”

                   OIG Position. We accept FSA’s management decision on this
                   recommendation.



USDA/OIG-A/03601-11-AT                                                                    Page 23
Section 3.    Outreach Coordination

Finding 4              FSA’s National Outreach Program Should Coordinate With
                       County Officials to Reach Local Minority Communities

                       FSA’s National Office Outreach staff does not evaluate or monitor State
                       office and CO’s outreach activities nor does it provide guidance on reaching
                       minority farmers. This occurred because the outreach staff does not have the
                       authority to direct State’s outreach activities. Due to this lack of
                       coordination, FSA cannot ensure that its COs are doing everything possible
                       to reach all underrepresented farmers and ranchers.

                       Both the Department’s and the agency’s mission statements emphasize that
                       outreach must serve the goal of providing equal access to USDA programs.
                       The mission statement for the Departmental Outreach Office states that the
                       office shall provide leadership, coordination, facilitation and expertise to
                       internal and external partners to ensure equal and timely access to USDA
                       programs and services for all constituents, with emphasis on the underserved.
                       Likewise, FSA’s mission statement for its Outreach Program stresses the
                       need to increase the participation of small or limited resource farmers and
                       ranchers and provide equal access to the programs to acquire and maintain
                       economic viability for family farmers and ranchers.

                       Although FSA COs should tailor their local outreach efforts to their
                       constituents’ needs—needs that will necessarily vary from region to region—
                       USDA’s commitment to providing equal access means that in communities
                       with a significant population of minority farmers, FSA COs should all
                       perform outreach that is similar in quality and quantity, if not identical in
                       content. We found, however, that outreach performed in the 10 counties
                       reviewed failed to meet this standard, and that different county service
                       centers offered outreach differing both in quality and quantity.

                       Outreach activities performed by COs vary from county to county—while
                       some COs actively attempt to reach SDA farmers and ranchers, others engage
                       in little or no outreach. In 1996, FSA launched a nationwide outreach
                       program designed to include historically underserved communities. Since the
                       impetus for this outreach originated at the national level, however, many
                       county and State officials remain unsure of their specific roles and
                       responsibilities within these broader initiatives.

                    During our review of 10 loan service centers, we interviewed direct loan
                    borrowers and individuals who do not participate in the direct loan programs
                    to solicit comments about the CO outreach program efforts and the treatment
                    they received when, and if, they requested technical assistance from a FSA or
                    CO employee.      We spoke to three minority farmers from the FSA loan
                    Service Center of Cross county Arkansas area to obtain there opinion on FSA
USDA/OIG-A/03601-11-AT                                                                    Page 24
                   outreach activity. All three minority farmers stated that they were unaware of
                   any outreach programs and that knowledge of FSA programs was
                   disseminated informally. FSA officials from loan service center stated that
                   they had not conducted outreach targeting minority farmers and ranchers
                   since 2003.

                   Both the Choctaw Loan Service Center and the Delaware Loan Service
                   Center in Oklahoma were conducting minimal outreach activities directed at
                   underserved farmers and ranchers. We interviewed eight producers both
                   minority and nonminority farmers and all stated that they were unaware of
                   any FSA outreach activities. FSA officials stated outreach was not a priority
                   for them because the majority of their time was spent providing technical
                   assistance to farmers in loanmaking and servicing areas.

                   In contrast, employees of the Tuscaloosa Loan Service Center in Alabama
                   participated in an agricultural summit recognizing small and minority
                   farmers, maintained personal contacts with individual producers, and
                   attended community workshops and school activities promoting agriculture.
                   The Panola Loan Service Center in Mississippi held an outreach meeting for
                   minority landowners and farmers, and also mailed letters to community and
                   church leaders encouraging them to participate in loan programs and COC
                   elections. In Arkansas, the Lincoln Loan Service Center held contacts with
                   minority organizations and the local minority newspaper, and also attended a
                   small farmers’ conference at the University of Arkansas at Pine Bluff.

                   We conclude that FSA has done much more to reach SDA and underserved
                   producers in the areas served by the Tuscaloosa, Panola, and Lincoln COs
                   than in those served by the Cross, Choctaw, and Delaware offices. To ensure
                   that knowledge of its programs is equally accessible to all, FSA must
                   coordinate its local outreach efforts much more closely.

                   Since 1996, FSA has emphasized national efforts in its outreach budget,
                   spending $17.9 million ($7.3 million in 2004) on national activities. These
                   initiatives and activities include providing funds via cooperative agreements
                   to groups such as the Arkansas Land and Farm Development Corporation, the
                   Federation of Southern Cooperatives/Land Assistance Funds, and
                   1862, 1890, and 1994 Land Grant Colleges and Universities to promote
                   agriculture opportunities. For example, in 2004, FSA entered into a
                   $100,000 cooperative agreement with the National Urban Internet Group to
                   form a partnership with other USDA agencies and the Department of Energy
                   to allow small rural towns’ access to e-government.

                   We also observed coordination problems between FSA national outreach
                   staff, State outreach coordinators, and CO employees. Although each State
                   has an outreach coordinator tasked with reporting that State’s outreach
                   programs to the FSA national outreach staff, the national staff does not
USDA/OIG-A/03601-11-AT                                                                  Page 25
                   evaluate or monitor State and COs performance, nor does it provide guidance
                   on reaching minority farmers. Due to FSA’s reorganization, the national
                   outreach staff reports to the Associate Administrator for Operations and
                   Management, who does not have line authority over State and COs. The
                   national staff, therefore, cannot compel States or counties to conduct certain
                   outreach activities. During our fieldwork, State outreach coordinators
                   informed us that they received limited guidance from the national office;
                   they, in turn, provided little or no guidance to county employees.

                   FSA has recognized a need for a nationwide outreach strategy that reaches
                   the CO level. In 2001, FSA conducted an internal study on outreach and
                   concluded that the agency needed a strategy that would embrace planning at
                   the national, State, and local levels, and formulate State and district outreach
                   objectives. These objectives should be addressed through specific
                   county level actions designed locally to support national and State goals.
                   Such actions would serve as the basis for analyzing, tracking, and monitoring
                   overall outreach progress. It would also provide a blueprint for ensuring that
                   each CO provides its constituents with equal access to information
                   concerning FSA’s programs.

Recommendation 6

                   Develop and implement policy to authorize the National Office Outreach
                   staff to oversee and direct State and CO’s outreach activities.

                   Agency Response. In its November 3, 2005, response, FSA stated:

                          FSA has the largest USDA footprint in the country. Currently,
                          FSA has over 15,000 employees, 2,400 offices, and some
                          64 programs to administer. To address issues in an
                          organization of this size, FSA has developed and maintained a
                          long standing policy to administer all programs, policies, and
                          personnel through a multi-tiered management system of
                          National, State, and county offices.

                          We do not believe OIG obtained an adequate view of FSA’s
                          outreach activities during the staff interviews that occurred,
                          therefore, we have provided the detail outlined above on our
                          National Outreach Office activities and efforts. FSA will,
                          however, re-emphasize our current policy, where SEDs and the
                          County Executive Directors are the principal entities
                          responsible for outreach in there respective State and county
                          offices. FSA’s National Outreach Office will review current
                          policy and recommend changes, if needed, and look at ways to
                          accumulate meaningful data on outreach efforts.

USDA/OIG-A/03601-11-AT                                                                    Page 26
                   OIG Position. The Director of FSA national outreach staff informed us that
                   his staff does not evaluate or monitor State and COs performance nor do they
                   provide guidance to COs on reaching minority farmers. The Director also
                   informed us that the national outreach staff reports to the Associate
                   Administrator for Operations and Management, who does not have line
                   authority over State and COs and therefore he cannot compel States or
                   counties to conduct certain outreach activities. In addition, we found that
                   some COs with high concentration of minority farmers engaged in little or no
                   outreach activities. We interviewed minority farmers located in these COs
                   who stated that they were unaware of agency outreach activities. To achieve
                   management decision on this recommendation FSA needs to address how the
                   agency will ensure effective and consistent outreach activities are
                   accomplished in all States and CO’s.

Recommendation 7

                   Develop and implement a nationwide strategy integrating outreach activities
                   at the national, State, and county office levels, including a mechanism for
                   tracking outreach success.

                   Agency Response. In its November 3, 2005, response, FSA stated that
                   they believe recommendation 7 should be deleted as the elements of the
                   recommendation are already being met.

                   OIG Position. FSA state outreach coordinators for the five States we
                   visited informed us that they received limited guidance from the national
                   office staff and they in turn provided little or no guidance to CO employees.
                   Employees at the COs visited stated that outreach was not a priority for them.
                   In addition, a FSA internal study on outreach conducted by State and CO
                   employees concluded that the agency needed a strategy that would embrace
                   planning at the national, State, and local levels, and formulate State and
                   district outreach objectives. The study recommended specific county level
                   actions designed locally to support national and State outreach goals. These
                   actions would serve as the basis for analyzing, tracking, and monitoring
                   overall outreach progress. It would also provide a blueprint for ensuring that
                   each CO provides its constituents with equal access to information
                   concerning FSA’s programs. To achieve management decision on this
                   recommendation FSA needs to address how the agency will ensure effective
                   and consistent outreach activities are accomplished in all State and CO’s.




USDA/OIG-A/03601-11-AT                                                                  Page 27
Scope and Methodology
                   We judgmentally selected 5 States (Alabama, Mississippi, Arkansas, Texas,
                   and Oklahoma) and 10 counties (2 counties per State). The five States were
                   selected because they were reviewed in the prior audit (50801-3-Hq) and had
                   a high concentration of minority farmers according to the 2002 Census of
                   Agriculture. In selecting the States and loan service centers, we considered
                   one or more of the following criteria:

                   •     Low minority participation as compared to the number of farm operators
                         per 2002 Census of Agriculture.

                   •     High volume of direct loan applications for minority borrowers.

                   •     High delinquency rate or number for minority borrowers.

                   •     Low farm program participation as compared to farm population
                         statistics.

                   •     High farm program participation as compared to loan participation when
                         farm program population statistics are high.

                   •     High number of civil rights complaints filed since 1997.

                   •     High number of claimants under the Pigford v. Glickman consent
                         decree.

                   The audit fieldwork was performed at the FSA National Office in
                   Washington, D.C.; the Program Complaints Inquiry Branch in Montgomery,
                   Alabama; and at 5 State offices and 10 loan service centers. (See exhibit A
                   for a complete listing of States and loan service centers and counties
                   reviewed during this audit). The fieldwork was performed from March 2004
                   through March 2005.

                   To accomplish our audit objectives, we performed the following audit steps
                   and procedures:

                   •     Through FSA’s Primary Loan Accounting System, we obtained data on
                         FSA’s direct loan programs (farm ownership, operating, and emergency
                         loans) as of September 2003, which we used to make a sample selection
                         of State offices and loan service centers. We obtained FY 2003 direct
                         loan application data from FSA’s Management of Agricultural Credit
                         database to determine the average processing times for processing loans.

USDA/OIG-A/03601-11-AT                                                                     Page 28
                   •     At the national office, we interviewed FSA officials to determine the
                         method of allocating direct loan program funds to the States, and the
                         controls in place to ensure that direct loan reserve funds and direct loan
                         pooled funds were used or reallocated to the States in accordance with
                         laws and regulations. We also interviewed national office officials to
                         obtain regulations, notices, directives, and guidance to the States for
                         direct loanmaking and loan servicing.

                   •     At the national office, we obtained a listing of claimants under the
                         Pigford v. Glickman consent decree to use in selecting State and loan
                         service centers for review. We also selected a sample of claimants
                         whose claims were upheld to determine if FSA complied with the
                         consent decree in providing priority consideration for loanmaking and
                         loan servicing requests of prevailing claimants.

                   •     At the CR, we obtained data on the number of outstanding complaints
                         and their status and how CR conducted agency compliance reviews.

                   •     We obtained Agriculture Census Data of 2002 and General Population
                         Census Data of 2000.

                   •     At the State offices, we reviewed the controls and oversight on
                         loanmaking and loan servicing, outreach, allocation of direct loan
                         program funds to loan service centers, and the order in which loan
                         applications were funded. We interviewed the State Civil Rights
                         Coordinator to determine their role in the program discrimination
                         complaint process, the methods of outreach used to increase minority
                         participation in the direct loan programs, and the CO committee election
                         process. We also reviewed any supplemental regulations, notices,
                         directives, or guidance issued by the State offices to the COs, which
                         pertained to loanmaking, loan servicing, debt settlement, and outreach
                         activities.

                   •     At the State offices, we reviewed loan servicing actions approved by the
                         State offices. We also reviewed debt settlement decisions of adjustment,
                         compromise, cancellation, and charge-off approved by the five State
                         offices. We reviewed the decisions to determine if those that required
                         future collection action for minority borrowers were disproportionate to
                         nonminority borrowers.

                   •     At the State offices, loan service centers, and COs we interviewed FSA
                         farm loan officials and CO employees to determine if they witnessed any
                         unfair treatment of minority farmers or employees. We also determined
                         the racial makeup of the FSA staff at the locations reviewed.



USDA/OIG-A/03601-11-AT                                                                    Page 29
                   •     At the loan service centers, we reviewed FSA’s 540 reports. The
                         540 reports contain the name of each borrower, the date of loan, the type
                         of loan, the number of loans, outstanding principal and interest, date,
                         type of servicing actions, and the status of the loan(s). We reviewed the
                         540 reports to determine the number of borrowers who received loan
                         servicing. We obtained information from the application database to
                         determine the number of applications for direct loans in FY 2003. The
                         application database contains data on applications approved, rejected, or
                         withdrawn by race.

                   •     At the loan service centers, we reviewed each sampled borrower’s case
                         file and analyzed the data to determine whether minorities, in
                         comparison to nonminorities, received smaller loan amounts than
                         requested, had numerous “subject to” provisions, received higher interest
                         rates or shorter repayment periods, or endured longer delays in the
                         processing of their loan applications. For those borrowers who received
                         loan servicing, we analyzed the data to determine whether minorities, in
                         comparison to nonminorities, had their applications for loan servicing
                         rejected; were not offered mediation, loan preservation servicing, or debt
                         settlement; or experienced long delays in the processing of their
                         servicing requests.

                   •     At the loan service centers and COs, we interviewed the CO committees’
                         minority advisors to determine their role on the COC and their efforts to
                         increase participation by minorities in FSA’s direct loan programs. We
                         interviewed direct loan borrowers and individuals who do not participate
                         in the direct loan programs to solicit comments about the CO outreach
                         program efforts and the treatment they received when, and if, they
                         requested technical assistance from a FSA or CO employee.

                   This audit was performed in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/03601-11-AT                                                                    Page 30
Exhibit A – Sites Visited
                                                                  Exhibit A – Page 1 of 1
                         County Where Loan Service    Counties Serviced by
            STATE            Center is Located        Loan Service Center
                                                     Monroe, Wilcox, Lowndes,
                                                     Dallas, Clarke,
                                  Monroe             Washington, Marengo,
                                                     Choctaw, Baldwin, Mobile,
            Alabama                                  Escambia, and Conecuh
                                                     Tuscaloosa, Fayette,
                                                     Lamar, Hale, Greene,
                                 Tuscaloosa
                                                     Sumter, Perry, Bibb, and,
                                                     Pickens

                                                     Lincoln, Cleveland, Dallas,
                                  Lincoln            Desha, Drew, Jefferson,
            Arkansas                                 and Arkansas
                                   Cross             Cross and St. Francis

                                                     Lincoln, Claiborne,
                                                     Franklin, Copiah, Jefferson,
                                  Lincoln
                                                     Lawrence, Amite, Adams,
           Mississippi                               Pike, and Wilkinson
                                                     Panola, Tate, DeSoto, and
                                  Panola
                                                     Quitman

                                 Choctaw             Choctaw and Pushmataha
           Oklahoma
                                 Delaware            Delaware and Ottawa

                                                     Guadalupe, Bee, Bexar,
                                                     Comal, Goliad, Hays,
                                 Guadalupe
                                                     Karnes, Refugio, and
                                                     Wilson
             Texas
                                                     Robertson, Brazos,
                                                     Burleson, Freestone,
                                 Robertson
                                                     Grimes, Houston, Leon,
                                                     and Limestone




USDA/OIG-A/03601-11-AT                                                           Page 31
  Exhibit B – Status of 13 Recommendations From the Prior Audit Report
                                                                                                               Exhibit B – Page 1 of 4

 Followup On Prior Audit Report Recommendations

 In our prior audit report, 13 recommendations were directed to FSA. As part of our review, we
 evaluated corrective actions taken by FSA to implement the recommendations. We found that FSA
 took the appropriate actions as agreed to resolve the recommendations.

  Audit Report No.
                                                                                                                    OIG Assessment of
    50801-3-HQ                  FSA Management Decision                         Final Action Taken
                                                                                                                      Final Action
  Recommendation
3a. Develop and              Memorandums to SEDs requesting an             FSA provided a copy of the              FSA conducted National
implement effective          outreach coordinator and proposed             memorandum sent to the SEDs.            Outreach Training in 1998
methods of outreach, and     National Outreach Training meet OIG’s                                                 and each State has an
establish uniform            requirements. FSA provided a copy of                                                  outreach coordinator.
standards and benchmarks     the memorandum sent to the SEDs.                                                      Final Action taken as
by which to evaluate                                                                                               agreed to in the
outreach performance.                                                                                              management decision.
4a. Appoint minority         FSA responded that soliciting candidates      FSA instructs COC to obtain             FSA actions were
advisors to the COCs         for advisors from the minority                recommendations from under-             appropriate to reach final
based on                     community or underrepresented groups is       represented groups -Handbook 16-        actions.
recommendations from the     the process that FSA has always intended      AO (Rev. 2), paragraph 155.
underrepresented groups      to follow in appointing the advisors.         Notice AO-1207 was issued on
in the county.                                                             11/11/99 to remind COC to continue
                                                                           outreach to increase minority
                                                                           participation on COC.
4b. Provide training so      FSA does recognize that some States do        FSA amended its Handbook 6-PM,          FSA actions were
that minority advisors are   not include advisors in their annual          Amend. 4 to instruct the State          appropriate to reach final
aware of their               orientation training of COC. Beginning        Committee to provide program            actions.
responsibilities to inform   with the 1997 election year, FSA will         administration by conducting a basic
minority individuals and     instruct the States to ensure that minority   orientation and training course,
farmers about FSA’s          advisors are included in the annual           using the nationally developed
programs and activities.     orientation training of COCs and that         course for new COC members,
                             special emphasis will be given to             alternates, and advisors as soon as
                             advisors, including outreach.                 possible after election. This
                                                                           amendment also instructs the States
                                                                           to submit Report PE-175R to
                                                                           provide the status of the training.
                                                                           The instructions were issued to State
                                                                           and COs on 10/26/00. Also, on
                                                                           9/12/00, in Handbook 16-AO (Rev.
                                                                           2), Amendment 4, it states that
                                                                           “newly elected COC members shall
                                                                           receive basic orientation and
                                                                           training course” (Par. 134B) and
                                                                           “newly appointed advisors shall
                                                                           receive basic orientation and
                                                                           training course” (Par. 155B).




 USDA/OIG-A/03601-11-AT                                                                                                         Page 32
  Exhibit B – Status of 13 Recommendations From the Prior Audit Report
                                                                                                                Exhibit B – Page 2 of 4

  Audit Report No.
                                                                                                                    OIG Assessment of
    50801-3-HQ                   FSA Management Decision                       Final Action Taken
                                                                                                                      Final Action
  Recommendation
5a. Work to increase the      A memorandum was issued to all SEDs         FSA is striving to improve diversity     Final action was sufficient
number of minority            to ensure all appropriate groups are        in its workforce by ensuring that        based on the management
employees in FSA COs          notified for employment.                    underrepresented groups are              decision that OIG
where minority groups are                                                 informed of career opportunities.        accepted.
underrepresented.                                                         For example, recently, 101 farm
                                                                          loan officer trainee positions were
                                                                          announced nationwide. The
                                                                          Employment Branch identified
                                                                          17 States for which intensive efforts
                                                                          to recruit minorities were made.
6a. Establish pre-            As part of FSA’s Customer Service           As previously reported on                Final action was sufficient
application interviews        Training that was scheduled for             December 16, 1999, FSA’s Farm            based on the management
with prospective              August 1998 in Cincinnati, Ohio, FSA        Loan Programs national training was      decision that OIG
applicants to determine       will emphasize that producers are to be     held in Cincinnati, Ohio, August 31-     accepted.
the nature of their request   made aware of the fact that the agency      September 3, 1998. Special
and help identify             must provide assistance in completing       emphasis was given to customer
information needed to         loan applications.                          service in which three loanmaking
complete the application                                                  case studies were discussed. One
process.                                                                  case study addressed application-
                                                                          processing issues. FSA attached a
                                                                          copy of the training agenda and the
                                                                          case study pertaining to application
                                                                          processing.
6b. Establish an assistance   Change in Management Decision Agreed        FSA issued Procedures Notice             Final action was sufficient
program that includes         to by OIG –                                 WSC-174 dated October 15, 2003,          based on the management
provisions for one-on-one                                                 to achieve final action on this          decision that OIG
attention between the loan    In lieu of publishing a regulation in the   recommendation.                          accepted.
officer and the farmer, and   Federal Register to address the increased
for farm visits, if           assistance to FSA direct farm loan
necessary, to help farmers    applicants and borrowers, the agency
prepare information           distributed the attached notice (WSC-
needed to complete            174).
application packages.
6c. Discontinue COC           Agency Instruction 1910-A, 1950.5 states    Agency Instruction 1910-A, 1950.5        Final action was sufficient
involvement in                that the agency determines credit           states that the agency determines        based on the management
determining                   worthiness. FSA continues to issue          credit worthiness. FSA continues to      decision that OIG
creditworthiness of farm      annual notices that FSA loan approval       issue annual notices that FSA loan       accepted.
applicants.                   officials determine credit worthiness.      approval officials determine credit
                                                                          worthiness.




 USDA/OIG-A/03601-11-AT                                                                                                         Page 33
  Exhibit B – Status of 13 Recommendations From the Prior Audit Report
                                                                                                                   Exhibit B – Page 3 of 4

  Audit Report No.
                                                                                                                       OIG Assessment of
    50801-3-HQ                    FSA Management Decision                         Final Action Taken
                                                                                                                         Final Action
  Recommendation
7a. Establish and maintain     Notice FLP-90 was issued to the field on      MAC was implemented on                   Final action was sufficient
a tracking system to           October 28, 1999. The notice indicated        February 29, 2000. Data population       based on the management
monitor the servicing of       that implementation of Management of          of the MAC system is schedule to be      decision that OIG
farm loan accounts             Agricultural Credit database (MAC)            completed by June 30, 2000. MAC          accepted.
especially in connection       would take place in November or               is still unstable and adjustments are
with delinquency rates and     December of 1999. The input system of         being made. MAC is projected to be       MAC is operational.
borrower responses to          the software has been released to field       stable by August 30, 2000.
notification of availability   offices.
of loan service programs,
and to ensure equality in
the servicing of all farm
loan accounts.
7b. Make personal contact      FSA does not agree with this                  On December 20, 1999, Farm Loan          Final action was sufficient
with those borrowers who       recommendation as written. Contacting         Programs issued Notice FLP-101           based on the management
do not respond to the          borrowers after they fail to respond to the   “Contacting Borrowers After the          decision that OIG
notifications or the           loan servicing notices within the statutory   Initial 1951-S Notices Are Sent.”        accepted.
requests for information       timeframe will be of no benefit. Instead,     FSA attached a copy of the notice.
within the prescribed          FSA proposed issuing a notice and
timeframes, and ensure         revising the agency handbook to require
that the borrowers fully       the agriculture credit manager to contact
understand the                 the borrower within 10 working days
significance of the            after the initial loan servicing notice is
notifications and the          sent to: determine if the borrower
requirements for acquiring     received the application materials;
loan servicing.                remind the borrower of the importance of
                               responding with a complete application
                               within the required timeframe, and
                               answer any questions which the borrower
                               might have. A record of this contact will
                               be maintained in the case file.
7c. Incorporate a review of    The recommended changes were                  The recommended changes were             Final action was sufficient
civil rights issues in FSA’s   included in the FY 2000 NIR Guide,            included in the FY 2000 NIR Guide,       based on the management
formal National Internal       pages 86, 87, and 99. Similar questions       pages 86, 87, and 99. Similar            decision that OIG
Reviews (NIR) and              were issued in the FY 1999 NIR Guide.         questions were issued in the             accepted.
County Operations                                                            FY 1999 NIR Guide.
Reviews, and have district
directors address civil
rights issues when
conducting periodic
reviews of loan service
centers and COs.
8a. Seek legislation to        Legislation was introduced to Congress        Legislation was introduced to            Final action was sufficient
“pool” SDA direct              regarding the pooling of SDA funds            Congress regarding the pooling of        based on the management
operating loan (OL) funds      between States. Congress gave                 SDA funds between States.                decision that OIG
into the national reserve to   consideration to this proposal but it was     Congress gave consideration to this      accepted.
redistribute to States with    not passed. FSA has again submitted a         proposal but it was not passed. FSA
unfunded, approved direct      legislative proposal to the Department.       has again submitted a legislative
OL applications.                                                             proposal to the Department.




 USDA/OIG-A/03601-11-AT                                                                                                            Page 34
  Exhibit B – Status of 13 Recommendations From the Prior Audit Report
                                                                                                              Exhibit B – Page 4 of 4

 Audit Report No.
                                                                                                                   OIG Assessment of
   50801-3-HQ                   FSA Management Decision                         Final Action Taken
                                                                                                                     Final Action
 Recommendation
8b. Develop procedures to    The FSA responded that FSA’s National         The FSA responded that FSA’s           Final action was sufficient
establish a recordkeeping    Office maintains a listing of the dollar      National Office maintains a listing    based on the management
system to retain,            amount distributed from the National          of the dollar amount distributed       decision that OIG
document, and justify        Reserve on an annual basis. The national      from the National Reserve on an        accepted.
funding of loan              office does not maintain a record of all      annual basis. The national office
applications from the        individual applications receiving reserve     does not maintain a record of all
national reserve.            funds. The present system utilized by the     individual applications receiving
Additionally, this           national office to maintain reserve           reserve funds. The present system
recordkeeping system         records provides an adequate                  utilized by the national office to
should be used to            management tool to determine the need         maintain reserve records provides an
document loan requests       for a pooling action. FSA agrees that         adequate management tool to
that go unfunded and to      reserve accounts including any lists of       determine the need for a pooling
determine if reallocation    applicants, which have been funded with       action. FSA agrees that reserve
of State allocations is      reserve funds, should be maintained for 3     accounts including any lists of
desirable to best utilize    years. This practice has been                 applicants, which have been funded
available funds.             implemented.                                  with reserve funds, should be
                                                                           maintained for 3 years. This
                                                                           practice has been implemented.
8c. Discontinue the          FSA responded that the ability of States      FSA responded that the ability of      Final action was sufficient
process of informally        to trade/transfer loan funds enables          States to trade/transfer loan funds    based on the management
transferring funds between   applicants whose application would            enables applicants whose               decision that OIG
States and return all        otherwise go unfunded to receive the          application would otherwise go         accepted.
unused funds to the          necessary credit to maintain their farming    unfunded to receive the necessary
national office for          operations. In situations when National       credit to maintain their farming
redistribution, as           Reserve funding is unavailable, States are    operations. In situations when
appropriate.                 empowered to seek funds from sources          National Reserve funding is
                             such as another State where additional        unavailable, States are empowered
                             funding may be available. FSA intends         to seek funds from sources such as
                             to continue this type of transaction          another State where additional
                             because it encourages States to utilize       funding may be available. FSA
                             every resource and opportunity available      intends to continue this type of
                             to them in their efforts to assist minority   transaction because it encourages
                             farmers.                                      States to utilize every resource and
                                                                           opportunity available to them in
                                                                           their efforts to assist minority
                                                                           farmers.




USDA/OIG-A/03601-11-AT                                                                                                         Page 35
 Exhibit C – General Population Statistics for Counties Reviewed
                                                                                 Exhibit C – Page 1 of 3

                                 Counties
               Loan Service                              African                American Asian
    State                       Service by     White                 Hispanic
                  Center                                American                 Indian American
                              Service Center
Alabama       Monroe          Monroe            14047        9747         190          236          70
                              Wilcox             3626        9479          97           19          17
                              Lowndes            3484        9885          85           15          16
                              Dallas            16496       29332         290           50        160
                              Clarke            15589       11989         180           62          45
                              Washington        11759        4867         160        1289           10
                              Marengo           10657       11655         219           19          41
                              Choctaw            8779        7027         107           25           7
                              Baldwin          122415       14444        2466          809        537
                              Mobile           252199      133465        4887        2682        5628
                              Escambia          24754       11837         379        1157           94
                              Conecuh            7806        6136         102           28          16
              Tuscaloosa      Tuscaloosa       112320       48327        2130          372       1516
                              Fayette           16075        2207         152           38          28
                              Lamar             13816        1906         207           18          10
                              Hale               6844       10131         157           30          27
                              Greene             1904        8013          58           12           8
                              Sumter             3836       10827         165           14          15
                              Perry              3660        8111         102            9           4
                              Bibb              15966        4624         210           49          17
                              Pickens           11720        8999         147           25          23
Arkansas      Lincoln         Lincoln            9402        4771         263           58           9
                              Cleveland          7267        1133         139           27          12
                              Dallas             5246        3774         177           22          21
                              Desha              7747        7107         485           54          46
                              Drew              13162        5085         329           47          79
                              Arkansas         15,602        4,848        157           44          74
                              Jefferson         40840       41788         810          202        558
              Cross           Cross             14606        4628         181           44          61
                              St Francis        14184       14375        1431           73        165
Mississippi   Lincoln         Lincoln           23010        9839         229           57          81


USDA/OIG-A/03601-11-AT                                                                          Page 36
Exhibit C – General Population Statistics for Counties Reviewed
                                                                              Exhibit C – Page 2 of 3

                              Counties
             Loan Service                            African                 American  Asian
    State                    Serviced by   White                 Hispanic
                Center                              American                  Indian  American
                            Service Center
                            Claiborne        1796        9951          94              6           17
                            Franklin         5305        3064          45            19             6
                            Copiah          13747       14653         332            21            45
                            Jefferson        1272        8424          64             8            10
                            Lawrence         8875        4252          89            22            36
                            Amite            7673        5800         113            17            11
                            Adams           15809       18117         273            49            85
                            Pike            19955       18507         284            74           127
                            Wilkerson        3219        7034          45            10             3
            Panola          Panola          17302       16575         384            56            63
                            Tate            17211        7870         223            50            25
                            DeSoto          91950       12216        2516           297          667
                            Quitman          3083        6942          55            13            17
Oklahoma    Choctaw         Choctaw         10517        1678         246         2,295            24
                            Pushmataha       9097          96         191         1,819            12
            Delaware        Delaware        26037          50         649         8,273            64
                            Ottawa          24612         192        1061         5,488            97
Texas       Guadalupe       Guadalupe      69,122        4,460         87           486       29,561
                            Bee            21,957        3,203         11           137       17,450
                            Bexar         959,122      100,025       1,452       11,193      757,033
                            Comal          69,501         741          23           414       17,609
                            Goliad          5,724         334           1            38        2,439
                            Hays           77,014        3,588         69           678       28,859
                            Karnes         10,588        1,667          9           105        7,324
                            Refugio         6,280          530          4            44        3,490
                            Wilson         26,311         392          13           188       11,834
            Robertson       Robertson      10,592        3,871          8            68        2,359
                            Brazos        113,479       16,333        104           548       27,253
                            Burleson       12,199        2,481          4            83        2,411




USDA/OIG-A/03601-11-AT                                                                       Page 37
Exhibit C – General Population Statistics for Counties Reviewed
                                                                       Exhibit C – Page 3 of 3

                              Counties
            Loan Service                           African              American Asian
   State                     Serviced by  White               Hispanic
               Center                             American               Indian American
                           Service Center
                           Freestone       13,501       3,378         3        67  1,465
                           Grimes          16,909       4,700        11        76  3,787
                           Houston         15,899       6,476        13        61  1,739
                           Leon            12,809       1,593         3       100  1,213
                           Limestone       15,602       4,205         3       100  2,859




USDA/OIG-A/03601-11-AT                                                                Page 38
Exhibit D – Agency Response
                              Exhibit D– Page 1 of 8




USDA/OIG-A/03601-11-AT                      Page 39
Exhibit D – Agency Response
                              Exhibit D– Page 2 of 8




USDA/OIG-A/03601-11-AT                      Page 40
Exhibit D – Agency Response
                              Exhibit D– Page 3 of 8




USDA/OIG-A/03601-11-AT                      Page 41
Exhibit D – Agency Response
                              Exhibit D– Page 4 of 8




USDA/OIG-A/03601-11-AT                      Page 42
Exhibit D – Agency Response
                              Exhibit D– Page 5 of 8




USDA/OIG-A/03601-11-AT                      Page 43
Exhibit D – Agency Response
                              Exhibit D– Page 6 of 8




USDA/OIG-A/03601-11-AT                      Page 44
Exhibit D – Agency Response
                              Exhibit D– Page 7 of 8




USDA/OIG-A/03601-11-AT                      Page 45
Exhibit D – Agency Response
                              Exhibit D– Page 8 of 8




USDA/OIG-A/03601-11-AT                      Page 46
